SIGAR                                         Special Inspector General for
                                               Afghanistan Reconstruction




                                                        SIGAR 14-16 Audit Report



      AFGHANISTAN’S BANKING SECTOR: THE
      CENTRAL BANK’S CAPACITY TO REGULATE
      COMMERCIAL BANKS REMAINS WEAK




                                                               JANUARY

                                                                  2014
SIGAR 14-16-AR/Afghanistan’s Banking Sector
 SIGAR
                                                       January 2014
                                                       Afghanistan’s Banking Sector: The Central Bank’s Capacity to
                                                       Regulate Commercial Banks Remains Weak

                                                       SIGAR 14-16 AUDIT REPORT
 Special Inspector General for
 Afghanistan Reconstruction                            WHAT SIGAR FOUND
                                                       Afghanistan’s banking sector remains fragile and in need of robust
 WHAT SIGAR REVIEWED                                   regulation by Da Afghanistan Bank (DAB). Further, forensic audits of
 The near collapse of Kabul Bank in                    major commercial banks in Afghanistan have identified systemic
 September 2010 raised major concerns                  weaknesses in many areas of banking governance and operations,
 among U.S. and other international donor              including personnel capacity, internal controls, accounting, credit
 agencies regarding the capacity of                    analysis, and compliance with regulations. DAB’s ongoing limitations and
 Afghanistan’s central bank, Da Afghanistan            inability to conduct robust oversight allows such weaknesses in Afghan
 Bank (DAB), to regulate Afghanistan’s                 banks to remain unchecked, heightening the risk of another banking
 commercial banks through its Financial                crisis.
 Supervision Department. This department is            The U.S. Agency for International Development (USAID), the Department
 responsible for ensuring the health of the            of the Treasury (Treasury), the Department of State (State), and the
 banking sector by controlling the issuance of         Department of Defense have not provided technical assistance to DAB
 licenses and regulating Afghanistan’s                 since 2011, when Afghan President Hamid Karzai banned U.S. advisors
 commercial banks and other financial                  from working with the central bank. However, the DAB Financial
 institutions. It conducts off-site monitoring of      Supervision Department’s (FSD) capacity to fulfill its banking sector
 financial activities and on-site examinations         regulatory functions is severely limited and in need of outside technical
 that scrutinize policies, procedures, and             assistance to help it meet international standards. Treasury and USAID
 compliance with Afghan laws and                       expressed a willingness to resume technical assistance to DAB and have
 regulations.                                          established conditions that the Afghan government and DAB must fulfill
 SIGAR previously reviewed U.S. efforts to             before the agencies will take steps to resume activities at DAB. To date,
 improve the Afghan government’s capacity to           however, the Afghan government has not accepted these conditional
 regulate the financial sector and to                  offers of assistance.
 strengthen controls and tracking of U.S.              In addition, technical support from international organizations remains
 funds flowing through the Afghan economy              quite limited. U.S. agency officials stated that, following the Kabul Bank
 (SIGAR Audit 11-13).                                  crisis, international organizations, such as the World Bank and the
 We conducted this audit to determine the              International Monetary Fund, became the primary providers of capacity
 extent to which various U.S. government               development programs at DAB FSD. However, World Bank officials told
 agencies, as well as key international                SIGAR they are terminating one of the bank’s two programs with DAB
 donors, have taken steps to strengthen the            because of unsatisfactory results caused, in part, by “a deteriorating
 regulatory capacity of DAB following the near         security environment.” The IMF does not currently have any advisors
 collapse of Kabul Bank.                               assisting DAB.

 SIGAR conducted this work in Kabul,                   In conclusion, the Afghan banking sector remains unstable and at risk of
                                                       experiencing another crisis similar to the near collapse of Kabul Bank.
 Afghanistan and Washington, D.C. from June
 2013 to January 2014.




WHAT SIGAR RECOMMENDS
Given the current impasse between the U.S. and Afghan governments regarding conditions that must be met before additional
technical assistance is provided to DAB, SIGAR is not making any recommendations at this time. However, because of the
fragile state of the banking sector and its importance to the overall stability of Afghanistan, SIGAR will continue to carefully
monitor the situation.



         For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
January 8, 2014


The Honorable John F. Kerry
Secretary of State

The Honorable Charles T. Hagel
Secretary of Defense

The Honorable Jacob J. Lew
Secretary of the Treasury

Dr. Rajiv Shah
Administrator, U.S. Agency for International Development


This report discusses the results of SIGAR’s audit of U.S. government and international efforts
to strengthen the regulatory capacity of the Afghan central bank (Da Afghanistan Bank or DAB)
after the near collapse of Kabul Bank in September 2010. We found that U.S. government
agencies terminated all of their programs providing assistance to DAB after the Kabul Bank
crisis, and have not reengaged due, in part, to the Afghan government’s reluctance to meet
conditions stipulated by the U.S. government that must be fulfilled before assistance to DAB is
resumed. In addition, we found that support to DAB from international institutions, such as the
World Bank and International Monetary Fund, is limited.
Given the current impasse between the U.S. and Afghan governments regarding assistance to
DAB, we are not making any recommendations at this time. However, because of the fragile
state of the banking sector and the importance of this sector to the health and stability of
Afghanistan’s economy, we will continue to closely monitor this situation.
We received technical comments on a draft of this report from the Department of State, the
Department of the Treasury, and the U.S. Agency for International Development, which we
incorporated into this report, as appropriate. We also provided the draft report to the
Department of Defense, which did not submit any comments. SIGAR conducted this work
under the authority of Public Law No. 110‐181, as amended, and the Inspector General Act of
1978, as amended; and in accordance with generally accepted government auditing
standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction

CC: The Honorable James B. Cunningham
    U.S. Ambassador to Afghanistan
                                            TABLE OF CONTENTS



Background .................................................................................................................................................................. 4

U.S. and International Support for DAB FSD Has Been Limited Following the Near Collapse of Kabul Bank ....... 5

Conclusion.................................................................................................................................................................. 10

Agency Comments ..................................................................................................................................................... 11

Appendix I - SCOPE AND METHODOLOGY ................................................................................................................ 12

Appendix II – ACKNOWLEDGMENTS ......................................................................................................................... 13


 ABBREVIATIONS

                    AML/CFT                                 Anti-Money Laundering/Countering the Financing of Terrorism
                    DAB                                     Da Afghanistan Bank

                    DOD                                     U.S. Department of Defense

                    ECF                                     Extended Credit Facility
                    EGGI                                    Economic Growth and Governance Initiative

                    FSD                                     Financial Supervision Department

                    IMF                                     International Monetary Fund
                    State                                   U.S. Department of State

                    Treasury                                U.S. Department of the Treasury

                    USAID                                   U.S. Agency for International Development




SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                                                                                          Page ii
In 2003, Afghanistan’s central bank (Da Afghanistan Bank or DAB) resumed regulatory functions necessary to
ensure the stability of the country’s banking sector. Since then, Afghanistan’s banking sector has grown from
two state-owned commercial banks and four state-owned special purpose development banks to nine
privately-owned commercial banks, three state-owned commercial banks, and four foreign commercial banks,
with more than 400 total branches across Afghanistan. 1
Between 2003 and 2010, DAB’s Financial Supervision Department (FSD), which is responsible for ensuring the
health of the banking sector by controlling the issuance of licenses for banks and other financial institutions,
failed to provide the oversight needed to identify the issues that led to the near collapse of Kabul Bank, then
the largest banking service provider in Afghanistan. At the time of its near collapse in September 2010, Kabul
Bank had an extensive network of branches and its services included the distribution of most Afghan
government salaries. In November 2012, the Independent Joint Anti-Corruption Monitoring and Evaluation
Committee issued a report on the collapse of Kabul Bank. 2 The committee determined that the bank was used
to run an investment scheme in a “regulatory vacuum,” diverting savings assets to personal and business
ventures. Kabul Bank’s near collapse resulted in a bail-out from the Afghan government at a cost of more than
$800 million—approximately five to six percent of Afghanistan’s gross domestic product—potentially depriving
the Afghan people of important services and programs. Since the Kabul Bank crisis, and the massive Afghan
government bail-out, international scrutiny of other commercial banks in Afghanistan has intensified and
identified systemic weaknesses.
Afghanistan’s fragile banking sector requires robust financial supervision. According to the International
Monetary Fund (IMF), a well-regulated financial system is essential for both domestic and international
economic and financial stability. Further, assisting the Afghan government to develop the financial capabilities
it needs to function independently is a key reconstruction objective of the U.S. and Afghan governments, as
well as the international community.
We conducted this audit to determine the extent to which U.S. agencies, including the Department of Defense
(DOD), the Department of State (State), the Department of the Treasury (Treasury), and the U.S. Agency for
International Development (USAID), as well as key international donors have taken steps to strengthen the
oversight and regulatory capacity of DAB following the near collapse of Kabul Bank. This report will be followed
by a separate audit report which evaluates the process by which U.S. agencies provide direct assistance funds
to the Afghan government and the internal controls in place to safeguard those funds while deposited in
Afghan banks.
To accomplish this objective, we reviewed Afghan laws and U.S. policies and plans relevant to U.S. initiatives to
improve DAB’s capacity to regulate Afghanistan’s banking sector. Additionally, we analyzed assessments
conducted by Afghan and international organizations to determine the capacity and needs of the bank. We met
with officials from State, Treasury, DOD, USAID, and DAB. We also met with officials from international donor
organizations such as the IMF and the World Bank, which implement capacity development programs with the
Afghan government. We conducted our work in Washington, D.C. and Kabul, Afghanistan from June 2013
through January 2014, in accordance with generally accepted government auditing standards. Appendix I
includes a discussion of our scope and methodology.




1 According to the World Bank, Afghanistan Economic Update, April 2013, the total assets of the Afghan banking sector

amount to about $4.4 billion with approximately $3.8 billion in total liabilities.
2 Independent Joint Anti-Corruption Monitoring and Evaluation Committee, Report of the Public Inquiry into the Kabul Bank

Crisis. November 15, 2012. The committee monitors and evaluates national and international efforts to fight corruption in
Afghanistan. It reports to the public, Afghan parliament, Afghan president, and international community.

SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                                       Page 3
BACKGROUND

DAB was established in 1939, but by the end of 2001, the formal Afghan financial system 3 was nearly
nonexistent and, according to DAB, its sole function was printing Afghan currency. Since then, the Afghan
government and DAB have executed numerous reforms to the Afghan banking sector to develop a modernized
financial system and, in 2003, the Afghan government revised DAB’s governing legislation. As a result of that
legislation, the Afghan government gave DAB responsibility to maintain domestic price stability, foster a stable
financial system, and promote an efficient national payment system and sustainable economic growth. To
achieve these objectives, DAB formulates and executes the government’s monetary policy, and licenses and
regulates financial institutions operating in Afghanistan. DAB FSD is responsible for ensuring the health of the
banking sector by controlling the issuance of licenses for banks and other informal financial institutions, such
as hawalas and foreign exchange dealers. 4 The department is also responsible for regulating Afghanistan’s
commercial banks and other financial institutions by conducting off-site monitoring of financial activities and
on-site examinations that scrutinize policies, procedures, and compliance with applicable laws and regulations.
In early September 2010, the Afghan banking sector experienced a major setback when news of widespread
fraud at Kabul Bank caused the withdrawal of almost half of the bank’s deposits, nearly causing the collapse
of the country’s largest bank and provider of government salaries. The Kabul Bank crisis highlighted the
weaknesses of DAB, and particularly the FSD, in fulfilling its core functions. Following the Kabul Bank crisis, a
number of stakeholders, both Afghan and international, reviewed FSD’s capacity to fulfill its regulatory and
oversight functions, and identified several areas that needed improvement. 5 The following are some of FSD’s
oversight and regulatory lapses that these stakeholders identified as contributing factors in the near collapse
of Kabul Bank:
    •    FSD did not conduct rigorous background checks on bank shareholders.
    •    After issuing a license to, and the opening of, Kabul Bank, FSD did not confirm that the operations of
         the bank were consistent with the submitted licensure application.
    •    FSD did not conduct any on-site examinations of Kabul Bank for the first 2.5 years of the bank’s
         operations.
    •    FSD did not have an information technology specialist available to provide expertise at on-site
         examinations, preventing it from verifying key information and accounting records provided by Kabul
         Bank.
    •    FSD did not ensure Kabul Bank branches obtained legally-required permits.
    •    FSD failed to impose and collect a fine when Kabul Bank failed to maintain minimum required
         reserves.



3According to the IMF and the World Bank, after years of conflict, confidence in the banking system in Afghanistan was
absent in 2001, and most organizations operating in Afghanistan used the informal financial sector to conduct banking
business. The IMF and the World Bank, Informal Funds Transfer Systems: An Analysis of the Informal Hawala System,
March 23, 2003.
4 Hawala dealers are individuals engaged in an informal money transfer system common in the Middle East and South

Asia. Under Afghan law, all operating hawalas are required to be licensed and report their transactions periodically to DAB.
Money service providers are individuals or entities that engage in funds transfers, and they may also provide safekeeping
and check cashing services.
5 The reviews include USAID Office of Inspector General, Review of USAID/Afghanistan’s Bank Supervision Activities and

the Kabul Bank Crisis, March 16, 2011; The World Bank, Afghanistan Economic Update October, 2010; IMF Country
Report, First Review Under the Extended Credit Facility Arrangement, August, 2012; Independent Joint Anti-Corruption
Monitoring and Evaluation Committee, Report of the Public Inquiry into the Kabul Bank Crisis, November 15, 2012. In
addition, other reports such as Kroll’s Forensic Audit of Kabul Bank, and Afghan government’s Memorandum of Economic
and Financial Policies, discuss the lapses in DAB FSD’s oversight capacity.

SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                                           Page 4
       •   Kabul Bank produced internal policy documents in accordance with DAB’s Regulation on Corporate
           Governance; however, when FSD found that the bank did not comply with its own policies, FSD did not
           hold Kabul Bank accountable for the violations.
To address some of the weaknesses identified in the aftermath of the Kabul Bank crisis, these stakeholders
made a number of recommendations to the Afghan government and DAB to help prevent future financial
crises. The IMF, in renewing its Extended Credit Facility (ECF) 6 program, proposed several terms intended to
reform Afghanistan’s financial system and regulatory regime. By agreeing to meet these terms, the Afghan
government would qualify for assistance financing under the IMF’s ECF program. The Afghan government
initially did not agree with key elements of the proposed program, resulting in a delayed renewal of the ECF,
which in turn negatively affected funding levels from other international donors, including the U.S.
government. 7 Ultimately, the Afghan government agreed to the key IMF demands, and the IMF approved a
renewed ECF program. Under the renewed program, the Afghan government committed to achieving reforms
throughout the government, including at DAB FSD, by agreeing to meet IMF’s proposed benchmarks for the
ECF program. 8
DAB’s Action Plan for Strengthening Financial Supervision emphasizes the importance of the banking
sector―and the key role that financial supervision plays in the banking sector― to Afghanistan’s economic
health and private sector development. For example, it states that “for the financial sector to work effectively
and efficiently, the proper legal and regulatory framework and business enabling environment must be in
place.” 9 Similarly, the U.S. Mission to Afghanistan Post Performance Management Plan enumerates eight
specific assistance objectives for the period 2011-2015, which cover the U.S. government assistance portfolio
in Afghanistan. 10 One of these objectives is to assist Afghanistan in attaining “a developed business climate
that enables private investment, job creation, and financial independence.” To achieve this objective, the plan
stresses the need for financial sector reform and support for DAB to establish international standards-based
supervision of commercial banks.


U.S. AND INTERNATIONAL SUPPORT FOR DAB FSD HAS BEEN LIMITED
FOLLOWING THE NEAR COLLAPSE OF KABUL BANK

U.S. government officials, international donor organizations, and the Afghan government have all stated that
the Afghan banking sector remains “fragile,” and the U.S. government has emphasized that strengthening
DAB’s financial supervisory function is a key reconstruction priority. For example, the U.S. Mission to
Afghanistan Post Performance Management Plan (2011-215) stresses the importance of U.S. government

6 The ECF is a 3-year program that provides financial assistance to Afghanistan, as well as other countries, and is the
primary IMF tool for providing medium-term assistance to low-income countries. ECF financial support is generally provided
through loans at zero percent interest rates.
7 The existence of an ECF agreement is important to the international community because it demonstrates the Afghan

government’s political will to enact necessary reforms. Adherence to the IMF benchmarks and fulfilling macroeconomic
requirements also has a direct effect on levels of foreign aid from the international community to the Afghanistan
Reconstruction Trust Fund. For example, the donor community withheld 85 percent of the total $933 million in donations to
the fund in solar year 1390 (March 2011- March 2012) until after the IMF approved a new ECF agreement for Afghanistan
in November 2011.
8These benchmarks include the creation of strategies to build capacity throughout the Afghan government in responding
promptly to economic crimes; the submission to Parliament of a new banking law; information-sharing agreements
between FSD, the Financial Transactions and Reports Analysis Center of Afghanistan, and government law enforcement
agencies; and reforms to FSD.
9   Da Afghanistan Bank, Action Plan for Strengthening Financial Supervision
10The U.S. Mission to Afghanistan Post Performance Management Plan is an interagency document. The Departments of
Defense, Agriculture, Justice, Homeland Security, Treasury, USAID, and the Federal Aviation Administration jointly
developed and implemented the plan, which includes objectives for 2011-2015 identified by the Presidents of the United
States and Afghanistan, the U.S. Secretary of State, and the U.S. Ambassador to Afghanistan.


SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                                        Page 5
engagement with DAB and states that “further assistance in financial sector and central bank operations will
include working with the DAB to conduct monetary policy, strengthen prudential supervision, and encourage
expansion of financial sector branch networks outside Kabul.” Similarly, at the Tokyo Conference in July 2012,
the Afghan government and the international community expressed the need to improve the integrity of public
financial management and the commercial banking sector by strengthening banking supervision and reforms
at DAB.
According to USAID, Treasury, and State officials, the Afghan banking sector remains weak and in need of
vigorous regulation. Following the Kabul Bank crisis, all of the major banks in Afghanistan were subjected to
several audits. Those audits—conducted as part of a World Bank program—indicated widespread and systemic
weaknesses in the banks’ financial conditions and operational capabilities. 11 Among the weaknesses were
underdeveloped or nonexistent policies and procedures, a lack of appropriate accounting expertise, and a
failure to follow international accounting principles. Other deficiencies included weak governance and
organizational structures, regulatory violations, and a need for capacity-building and training.
Although a key reconstruction priority, U.S. government agencies have not taken direct steps in recent years to
assist DAB in achieving the stated U.S. goal of strengthening DAB’s regulatory capacity. Specifically, following
the near collapse of Kabul Bank, U.S. government agencies—including USAID, Treasury, State, and DOD—
terminated any ongoing support to DAB FSD. They have not since provided any bilateral assistance—technical
or otherwise—to DAB FSD. 12 Following the collapse of Kabul Bank, President Karzai decided that U.S.
government advisors were no longer welcome at DAB. Additionally, DAB FSD officials stated that the Afghan
government’s criticism of U.S. technical assistance to DAB FSD in the aftermath of the Kabul Bank crisis also
contributed to the disengagement of U.S. agencies from the bank. According to DAB FSD officials, although the
DAB governor agrees that FSD would benefit from additional technical assistance, he has not formally
requested such assistance from U.S. government agencies. USAID, Treasury, and State officials stated that
although they are willing to provide the needed technical assistance to DAB FSD, there remains a lack of
political will on the part of the Afghan government that would reassure U.S. agencies that their technical
assistance is appropriately used.
Below is a detailed explanation of former U.S. government agency technical assistance to DAB, reasons for
disengagement or not providing assistance, and the conditions under which each agency would consider
providing assistance in the future.
USAID
USAID began providing technical assistance to DAB FSD in September 2003 through a contract with
BearingPoint. 13 This assistance continued under Deloitte through the establishment of USAID’s Economic
Growth and Governance Initiative (EGGI) in August 2009. As part of the $92 million USAID contract, Deloitte
provided trainers and technical experts to help build DAB FSD’s capacity to regulate the banking sector by
strengthening supervision efforts and developing human capacity for bank examiners at DAB FSD. 14

11 The audits were a part of the World Bank’s Financial Sector Rapid Response Project. Two firms, Mazars, a France-based

audit firm, and Talal Abu-Ghazaleh Organization, a Jordan-based audit firm, each conducted audits of five commercial
banks.
12 Neither State nor DOD provided any technical assistance to DAB FSD. DOD’s Task Force for Business and Stability

Operations provided assistance to Afghan banks to increase their ability to accept electronic funds transfers and develop a
retail payments infrastructure that will allow banks to establish an Automatic Teller Machine/Point of Sale network.
13 USAID originally awarded the contract (EEM-I-00-07-00005-00) to BearingPoint, which sold its public services businesses

(including the EGGI contract) to Deloitte in May 2009. Because the same advisors who worked for BearingPoint continued
to perform services under Deloitte, we refer to Deloitte as the contractor for the purposes of this report.
14Deloitte’s responsibilities under the EGGI contract included (1)developing DAB’s capacity to regulate the financial sector,
(2) Working with DAB to support the conduct of monetary policy, (3) encouraging the expansion of financial sector branch
networks, (4) building the capacity of Afghan commercial banks, (5) providing support to the Ministry of Finance to improve
economic forecasting, (6) assisting various Afghan ministries to strengthen private sector development, and (7) working
with local governments to implement economic policy reforms.

SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                                           Page 6
A USAID Office of Inspector General report found that USAID’s oversight of the EGGI program was weak, and
Deloitte’s advisors at DAB FSD “did not follow up aggressively on indications of fraud at Kabul Bank.”
Consequently, “Deloitte and the mission lost opportunities to contain the problems at Kabul Bank.” 15 USAID
officially terminated the DAB FSD capacity-building component of the EGGI contract in June 2011, following the
September 2010 Kabul Bank crisis and President Karzai’s subsequent directive in March 2011 that U.S.
advisors were no longer welcome at DAB. 16 According to USAID, it terminated the DAB FSD component of the
EGGI contract with Deloitte due to “the changed conditions on the ground” and to ensure that its “technical
assistance is as effective as possible.” Since then, USAID has not provided technical assistance to DAB FSD, in
part due to direction from Embassy officials that future efforts to strengthen DAB’s supervisory capacity would
be led by the World Bank and the IMF. USAID officials told us that the agency is willing to resume activities to
strengthen DAB’s supervisory and regulatory capacity, provided that DAB meets certain conditions. According
to USAID officials, the agency would consider reengaging with DAB if the central bank commits to achieving
designated milestones and issuing a formal assistance request to the agency. One major milestone USAID
officials indicated they might require DAB to meet prior to reengaging is the reform of Afghanistan’s banking
and anti-money laundering/countering the financing of terrorism (AML/CFT) laws. USAID officials stated that
the current laws create systemic weaknesses in the banking sector, and USAID is reluctant to train DAB
officials while issues remain that adversely affect the foundation of the sector. 17 Similarly, the Independent
Joint Anti-Corruption Monitoring and Evaluation Committee report on the Kabul Bank crisis states that “new
banking laws are needed to address weaknesses in corporate governance, capital, large exposures, related
parties, consolidated supervision, early intervention, enforcement, bank resolution, and Islamic banking.”
Treasury
Treasury began supporting DAB in March 2006 through the provision of a resident advisor to the Financial
Transactions and Reports Analysis Center of Afghanistan—the Afghan financial intelligence unit. Additionally, in
February 2010, Treasury assigned a resident advisor to begin providing support to the newly-created AML/CFT
Section of the FSD. The resident advisor supported the AML/CFT section by assisting the section to (1) develop
thorough AML/CFT on- and off-site examination procedures for banks, (2) devise a standard rating system for
AML/CFT compliance ratings, (3) prepare draft examination procedures for money services providers, and (4)
conduct targeted reviews of several money service providers that were identified as having been involved with
suspicious transactions. The resident advisor also provided training and mentoring to FSD personnel in the
conduct of bank examinations. 18
Treasury officials described the working conditions for its technical advisors at DAB FSD as “difficult,” even
before the Kabul Bank crisis, and stated that conditions worsened following the bank’s near collapse.
Treasury’s technical assistance ended in March 2011 when the Afghan president banned U.S. government
advisors from working at DAB. According to Treasury officials, other reasons for its disengagement with DAB
FSD include (1) incorrect statements from the Afghan government that U.S. government advisors were



15USAID Office of Inspector General, Review of USAID/Afghanistan’s Bank Supervision Activities and the Kabul Bank Crisis,
Report Number F-306-11-003-S, March 16, 2011.
16 Since terminating support for DAB FSD, USAID’s primary method of supporting the Afghan banking sector is through its

$74 million, 5-year, Financial Access for Investing in the Development of Afghanistan program. USAID began the program in
May 2011 to help improve the commercial banking sector by focusing on commercial bank activities, rather than the
supervisory and regulatory efforts that EGGI supported. Program activates include (1) providing banks with technical
assistance in the fundamentals of banking, (2) assisting women entrepreneurs through targeted business development
and training, and (3) facilitating private sector loans. In addition, USAID’s efforts through the program include providing
support to the Afghanistan Banks Association, the Afghanistan Institute for Banking and Finance, and the Afghanistan
Microfinance Association.
17   As of September 2013, new AML/CFT and banking laws were drafted but not passed by Parliament.
18 Treasury’s Office of Technical Assistance conducted two capacity building projects at DAB—the Support for Financial

Transactions and Reports Analysis Center of Afghanistan project between March 2006 and mid-December 2010 and the
Support for AML/CFT Section of Financial Supervision Department between February 2010 and March 2011.

SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                                         Page 7
responsible for the Kabul Bank crisis and (2) Treasury’s “lack of conviction that technical assistance would
support a DAB/financial sector strengthening plan in which Treasury had confidence.”
In December 2011, the DAB Governor inquired about the possibility of Treasury resuming its support of the
AML/CFT aspects of financial supervision. Treasury established six conditions for the resumption of Treasury
assistance to DAB:
     1. Afghanistan’s IMF program must be on track.
     2. Former Kabul Bank shareholders cannot be involved in the banking sector, either directly or indirectly.
     3. A clear communication from President Karzai that Treasury advisors would be welcomed.
     4. Cessation of public statements by the Afghan government that the U.S. government is responsible for
        the Kabul Bank crisis.
     5. Conviction that Treasury engagement would support a DAB/financial sector strengthening plan in
        which Treasury had confidence.
     6. A clear understanding, in writing, of the role of Treasury technical advisors, the objectives of their
        support, progress benchmarks, their obligations of confidentiality, and how the work of advisors would
        relate to that of other assistance providers.
After being notified of the Treasury conditions, the DAB Governor did not pursue the matter. Officials from DAB
FSD confirmed that they have not requested assistance from the department since Treasury established the
conditions. As a result of the Afghan government’s reluctance to meet the conditions, Treasury has not
provided technical assistance to DAB since March 2011. However, according to Treasury officials, they engage
with DAB through informal, periodic meetings to encourage DAB to meet the IMF benchmarks for the ECF
program. DAB officials stated that, while DAB has achieved many IMF benchmarks, it needs technical
assistance to meet all of them, as called for under Treasury’s first criterion.
State
State has not provided any technical assistance to DAB FSD. According to State officials, the Embassy
Economic Section does not have the capacity or expertise to implement a technical assistance program or
provide technical advisors to DAB. 19 The Economic Section, together with the Treasury Attaché, interacts with
the Afghan government on bilateral and international economic policy issues, including matters related to
banking sector laws and regulations. According to State officials, the Embassy regularly holds policy
conversations with DAB and other stakeholders in the banking sector, but it does not conduct formal
assessments of DAB or Afghan banks. The Embassy relies instead on products and reports from international
organizations, such as the IMF.
DOD
DOD has not provided any technical assistance to DAB FSD. From 2010-2011, DOD’s Task Force for Business
and Stability Operations (TFBSO) had some initiatives to improve the ability of Afghan banks to accept
electronic funds transfers and develop a retail payments system. 20 Projects carried out by the Task Force in
Afghanistan are limited by law to those “determined by the Secretary of Defense, with the concurrence of the
Secretary of State, as strengthening stability or providing strategic support to the counterinsurgency campaign
in Afghanistan.” 21 According to Task Force officials, since fiscal year 2011, State concurred with all Task Force

19 The Embassy’s Economic Section is a component of the State Department’s presence in Afghanistan. The section is

responsible for managing, monitoring, and reporting on the full range of economic issues between the U.S. and Afghan
governments.
 The Task Force created the project in response to DAB’s request for assistance in enhancing consumer electronic and
20

mobile payment capability and to support its own goal to improve the business environment for private foreign investment.
21 Ike Skelton National Defense Authorization Act for Fiscal Year 2011, Pub. L. No. 111-383, § 1535, 124 Stat. 4137,

4426-28, as amended.

SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                                       Page 8
initiatives in Afghanistan with the exception of its banking sector projects, “pending further coordination with
State, Treasury, and the Embassy.” TFBSO officials told us that as a result, the Task Force had to terminate its
support to the Afghan banking sector and has not been able to reengage. When we asked State officials why
they did not concur with TFBSO’s banking sector projects, they indicated that their predecessors, who were no
longer posted at the embassy, had made the decision following President Karzai’s ban on technical advisors at
DAB. They did not provide any additional explanation for the non-concurrence. TFBSO officials stated that they
have not proposed another banking sector project.


IMF and World Bank Provide Limited Assistance
Officials from Treasury, State, and USAID all stated that, following the Kabul Bank crisis, international
organizations, such as the IMF and the World Bank, became the primary providers of technical assistance at
DAB FSD. However, the IMF does not currently have any advisors assisting DAB and World Bank officials told
us that they are terminating one of their two programs with DAB due to unsatisfactory results.

IMF
According to the IMF, a resilient, well-regulated, and well-supervised financial system is essential for both
domestic and international economic and financial stability, and problems in financial systems can trigger
capital flight, exchange rate pressures, and create large fiscal costs to rescue troubled financial institutions. To
prevent the kind of costs to the Afghan government that resulted from the Kabul Bank crisis, one of the IMF’s
objectives in Afghanistan for the 2011-2014 period is to safeguard the financial sector, in part, by
strengthening Afghanistan’s banking laws and DAB’s supervisory and regulatory capacity and internal
regulations. To achieve those objectives, the IMF began providing two resident advisors to DAB FSD in early
2011. 22 One advisor assisted in developing DAB FSD's ability to perform on-site and off-site examination, while
the second advisor helped the department draft laws and train new employees recruited in the wake of the
Kabul Bank crisis. One advisor’s contract expired in July 2013, while the second advisor left Afghanistan in
early 2013 due to health issues. According to DAB FSD officials, it is possible he will not be deemed fit to
return, in which case the IMF will continue to have no resident advisors at FSD.
The IMF advisors played an important role training and mentoring DAB FSD employees for on-site and off-site
examinations. For example, USAID’s EGGI final report states that DAB FSD bank examiners lack the experience
necessary to effectively fulfill their responsibilities. According to the report, “on average, FSD examiners had 24
months of total work experience, which is considerably short of the minimum five-year experience held by
mature practitioners in other parts of the world.” 23 In addition, DAB FSD officials stated that recruitment of FSD
examiners continues to be a challenge because, after the Kabul Bank crisis, staff bank examiners were
convicted and imprisoned for their failure to prevent the crisis. Consequently, DAB does not have sufficient
numbers or adequately experienced examiners.
According to DAB FSD officials, to meet one of the IMF benchmarks, FSD produced a 5-year strategy that
addresses DAB FSD’s weaknesses with assistance from donors. To accomplish this, DAB is currently
negotiating terms of reference with the IMF in order to receive additional technical assistance. DAB FSD
officials stated that they prefer two technical advisors, one for the on-site and one for the off-site financial
supervision units. However, according to these officials, the IMF has so far been willing to provide only one. At
the time of this report, however, IMF did not have any advisors assisting DAB.

World Bank
The World Bank has implemented two projects at DAB since 2009, but does not currently provide any technical
assistance to DAB FSD. Its first program, the $8 million Afghanistan Financial Sector Strengthening Project,

22   The U.K. Department for International Development provided the funding for the two advisors.
23   Economic Growth and Governance Initiative, Final Report, October 2013.

SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                                  Page 9
provided technical assistance to DAB for the improvement of its banking supervision and regulatory functions
and to “establish key building blocks for further financial sector reform.” Although the project helped create the
Afghanistan Institute of Banking and Finance 24 and helped launch DAB’s Collateral Registry, 25 the World Bank
ultimately deemed the project’s progress to be “moderately unsatisfactory” and is ending the program.
According to World Bank officials, the project did not have satisfactory results due in part to the “deteriorating
security situation.”
The World Bank’s other program at DAB was its Financial Sector Rapid Response Project. The World Bank
launched this $19 million program in August 2011 to assist DAB in developing action plans to improve banking
supervision and implement a modern national payment system. The program, expected to run through 2016,
included audits of 10 Afghan commercial banks and further support for the development of the Afghanistan
Institute of Banking and Finance. 26 Those audits concluded that the banks are generally weak in their financial
conditions and operational capabilities, although not as problematic as Kabul Bank was prior to its near
collapse.
World Bank officials told us they recognize the critical importance of improving DAB FSD’s capacity, but stated
that there is a high risk of engagement with FSD after the Kabul Bank crisis. World Bank officials also stated
that after the expulsion of U.S. advisors from DAB, the World Bank struggled to fill DAB’s assistance needs that
were previously met by USAID and Treasury, and ultimately attempted to achieve too much with too few
resources. The officials noted that World Bank programs providing assistance to DAB FSD were originally
designed only to fill in the gaps left by the more comprehensive projects implemented by other international
donors and U.S. agencies, which had comparatively large roles at DAB FSD when the World Bank’s programs
began. When the U.S. government withdrew its advisors from DAB and terminated its programs, it created large
gaps in capacity development needs throughout DAB.


CONCLUSION

The banking sector is essential to the long-term economic growth and financial development of Afghanistan,
and a strong regulatory regime is a key component of that goal. The 2010 Kabul Bank crisis resulted in
widespread loss of confidence in the banking sector and the loss of more than $800 million to the Afghan
government and its people. Further, the events at Kabul Bank highlighted the limited capacity of DAB’s FSD to
regulate the banking sector, enforce its bank supervision function, and its needs for capacity development and
technical assistance to meet international standards. Unfortunately, since early 2011, the U.S. and Afghan
governments have been at an impasse regarding U.S. assistance to DAB. U.S. government agencies have
offered to provide assistance, based on certain conditions, but the Afghan government has not accepted. In
the absence of active U.S. participation, and only limited World Bank and IMF involvement, the Afghan banking
sector remains weak and at risk of further instability, threatening the government’s path toward achieving
sustainable economic and financial growth. Given the current impasse between the U.S. and Afghan
governments regarding a resumption of technical assistance to DAB, we are not making any recommendations
at this time. However, we will continue to carefully monitor this situation.




24 The Afghanistan Institute of Banking and Finance is a nonprofit organization established to address a shortage of skills

and domestic training programs in the Afghan financial sector by developing a body of qualified bankers and financial
professionals in Afghanistan, and by developing an independent financial services training institute.
25 The Collateral Registry is an online database administered by DAB. It provides a central registry of movable properties in

Afghanistan used as collateral, enabling creditors to check whether proposed collateral has already been offered to other
creditors.
26 On November 26, 2013, the World Bank's Board of Executive Directors approved $6.7 million for the additional financing

and restructuring of its Financial Sector Rapid Response Project.

SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                                          Page 10
AGENCY COMMENTS

USAID, State, and Treasury provided technical comments, which we incorporated as appropriate. We also
provided a draft of the audit report to the Department of Defense; however, the Department did not provide
comments.




SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                           Page 11
Appendix I - SCOPE AND METHODOLOGY

This report provides the results of SIGAR’s audit of U.S. assistance provided to develop the regulatory and
supervisory capacity of Afghanistan’s central bank (Da Afghanistan Bank or DAB). The initial scope of the audit
included two objectives, 1) to evaluate the steps taken by various U.S. agencies to strengthen the oversight
and regulatory capacity of DAB after the near collapse of Kabul Bank, and 2) to evaluate the process by which
U.S. agencies provide direct assistance funds to the Afghan government and the internal controls in place to
safeguard those funds while deposited in Afghan banks. During the course of the audit, we decided to address
the two objectives in separate audit reports. The objective of this audit was to determine the extent to which
various U.S. agencies, as well as key international institutions, have taken steps to strengthen the oversight
and regulatory capacity of DAB after the near collapse of Kabul Bank in September 2010. DAB has several
departments which are tasked to perform a number of objectives that include maintaining domestic price
stability; promoting an efficient national payment system; executing monetary policy; executing foreign
exchange policy; managing foreign exchange reserves; printing and issuing Afghan currency; and licensing,
regulating, and supervising the Afghan commercial banking system. For the purposes of this audit, we limited
the scope of our objective to a review of (1) the capacity of DAB’s Financial Supervision Department (FSD),
which is responsible for ensuring the health of the financial sector by controlling the licensing of banks and
other financial institutions, and (2) the support provided to DAB FSD by U.S. government agencies and
international institutions following the near collapse of Kabul Bank.
To evaluate U.S. efforts to improve DAB’s capacity to regulate its banking sector, we reviewed U.S. and Afghan
strategies, plans, and other program documentation relevant to banking sector development programs that
U.S. agencies have implemented in Afghanistan. Additionally, we prepared and sent a questionnaire to each
agency regarding their efforts to assist DAB. After reviewing the agency responses to this questionnaire, and
following our initial meetings with relevant officials, we determined that U.S. agencies do not currently have any
active programs in support of DAB’s capacity to regulate and supervise the Afghan banking sector.
Given the internationally-recognized vital role of a stable banking system in national economies, as well as the
importance of a strong Afghan central bank to the U.S. mission in Afghanistan and the Afghanistan National
Development Strategy, we sought to determine the reasons behind the lack of U.S. support for DAB’s
supervisory and regulatory efforts. To do so, we conducted interviews in Washington D.C., and Kabul
Afghanistan, with officials from State, USAID, DOD, and Treasury regarding U.S. actions related to the Afghan
banking sector. In addition, we reviewed relevant program documentation from all agencies.
To determine what international or multilateral efforts may be either in place or planned to support capacity-
building efforts at DAB FSD, we met with Kabul-based officials from the World Bank, the International Monetary
Fund, and the Asian Development Bank. We also reviewed relevant program documentation related to their
respective assistance programs at DAB FSD. To determine the assistance needs of DAB FSD and the
circumstances surrounding its current and former relationships with U.S., international, and multilateral efforts
to support it, we examined documentation related to the aftermath of the Kabul Bank crisis as well as
assessments of the current state of the Afghan banking sector. These documents included official reviews of
the lessons learned from the crisis, audits of Afghan commercial banks, and evaluations of DAB’s effectiveness
in supervising and regulating the sector. In addition, we conducted a site visit to DAB in order to interview
relevant officials regarding the assistance needs of DAB FSD and its relationship with U.S. agencies.
We conducted our audit work in Kabul, Afghanistan, and Washington, D.C., from June 2013 to January 2014,
in accordance with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective. This audit was performed by SIGAR under
the authority of Public Law No. 110-181, as amended, and the Inspector General Act of 1978, as amended.



SIGAR 14-16-AR/Afghanistan’s Banking Sector                                                               Page 12
Appendix II – ACKNOWLEDGMENTS

Matthew Dove, Senior Audit Manager
Zubair Hakim, Analyst-in-Charge
Ryan Heger, Program Analyst
Daniel Tessler, Program Analyst




SIGAR 14-16-AR/Afghanistan’s Banking Sector   Page 13
                                  This audit report was conducted under
                                        project code SIGAR-082A.




SIGAR 14-16-AR/Afghanistan’s Banking Sector                               Page 14
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
